  AUDIT OF THE OFFICE ON VIOLENCE AGAINST
WOMEN AND OFFICE OF JUSTICE PROGRAMS GRANTS
   AWARDED TO THE IDAHO SUPREME COURT
                BOISE, IDAHO




          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division


          Audit Report GR-60-12-021
               September 2012
     AUDIT OF THE OFFICE ON VIOLENCE AGAINST
   WOMEN AND OFFICE OF JUSTICE PROGRAMS GRANTS
      AWARDED TO THE IDAHO SUPREME COURT
                   BOISE, IDAHO

                         EXECUTIVE SUMMARY

      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of four grants totaling $3,079,633
awarded by the Office on Violence Against Women (OVW) and the Office of
Justice Programs (OJP) to the Idaho Supreme Court (ISC), as shown in
Exhibit 1.

EXHIBIT 1: GRANTS AWARDED TO THE ISC
  GRANTING                                            PROJECT
   AGENCY          AWARD NO.            AWARD DATE   END DATE       AMOUNT
    OVW        2005-WE-AX-0135           09/26/05    02/29/12     $ 2,579,633
    OJP        2009-DC-BX-0086           09/10/09    08/31/12         200,000
    OJP        2009-MO-BX-0044           09/16/09    03/31/13         250,000
    OJP        2010-MO-BX-0046           09/16/10    06/30/12          50,000
                                                        TOTAL:    $3,079,633
Source: OJP’s Grant Management System

Background

       Created in 1995, the OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. The OVW’s stated mission is to provide federal
leadership in developing the nation’s capacity to reduce violence against
women, and administer justice for and strengthen services to victims.
Currently, the OVW administers 3 formula-based and 18 discretionary grant
programs, established under the Violence Against Women Act (VAWA) and
subsequent legislation.

       The OJP works to provide innovative leadership to federal, state, local,
and tribal justice systems by disseminating state-of-the art knowledge and
practices across America, and by providing grants for the implementation of
these crime fighting strategies. OJP does not directly carry out law
enforcement and justice activities; rather, OJP works in partnership with the
justice community to identify the most pressing crime-related challenges




                                         i
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges.

      This audit covers one OVW grant and three OJP grants awarded to the
ISC. As the third branch of the Idaho State Government, the Judicial Branch
strives to provide access to justice through the timely, fair, and impartial
resolution of cases. The ISC is the state's court of last resort. The ISC
hears appeals from final decisions of the district courts, as well as from
orders of the Public Utilities Commission and the Industrial Commission. It
has original jurisdiction to hear claims against the state and to issue writs of
review, mandamus, prohibition, and habeas corpus, and all writs necessary
for complete exercise of its appellate jurisdiction. The ISC may also review
decisions of the Court of Appeals upon petition of the parties or its own
motion. 1

      Grant No. 2005-WE-AX-0135 was awarded to the ISC under the OVW’s
Grants to Encourage Arrest Policies Program in the amount of $2,579,633.
The program intends to enhance victim safety and offender accountability in
cases of domestic violence and dating violence by encouraging jurisdictions
to implement mandatory and pro-arrest policies as part of a coordinated
community response.

       Grant No. 2009-DC-BX-0086 was made under OJP’s Drug Court
Discretionary Grant Program, which is designed to assist states, state courts,
local courts, units of local government, and Indian tribal governments in
developing and establishing drug courts for substance-abusing adult and
juvenile offenders. The Drug Court Discretionary Grant Program is awarded
in one of three areas: (1) implementation, (2) enhancement, or
(3) statewide. The ISC’s award was originally made under the
“enhancement” category; however, this was a clerical mistake in the
application and submission progress, and the OJP has since identified the
ISC as a “statewide” grantee. 2

      Finally, Grant Nos. 2009-MO-BX-0044, and 2010-MO-BX-0046 were
made under OJP’s Justice and Mental Health Collaboration Program (JMHCP).
The JMHCP is designed to increase public safety by facilitating collaboration
among the criminal justice, juvenile justice, and mental health and
substance abuse treatment systems to increase access to mental health and

       1
          Statements regarding the mission and intent of the OVW, OJP, and ISC are from
the applicable agency’s website (unaudited).
       2
          Enhancement grants are available to jurisdictions with a fully operational (at least
1 year) adult drug court to provide various drug court services. Statewide grants are
available to state agencies to improve, enhance, or expand drug court services.


                                               ii
other treatment services for those individuals with mental illness or
co-occurring mental health and substance use disorders.

       The ISC’s stated intention for Grant No. 2009-MO-BX-0044 is to
expand a current program designed to develop and utilize community
sentencing alternatives to reduce the flow of individuals through the state
prison system. Through the grant, the ISC plans to implement new key
elements dedicated to addressing the specific needs of female offenders with
co-occurring mental and substance use disorders, emphasize cross systems
training aimed at improving treatment and supervision, and refine existing
process and outcome evaluation design.

      With Grant No. 2010-MO-BX-0046, the ISC plans to develop a
statewide strategic plan to focus on improving outcomes for justice-involved
persons with mental illness and co-occurring substance use disorders. The
plan aims to include organizing and convening a broadly based, statewide
task force chaired by the Chief Justice of the ISC.

Our Audit Approach

       The objectives of this audit are to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) financial status and progress
reports, (7) grant requirements, (8) program performance and
accomplishments, and (9) monitoring of subgrantees and contractors. We
determined that property management and program income were not
applicable to these awards. We tested compliance with what we consider to
be the most important conditions of the grants. Unless otherwise stated in
this report, the criteria we audit against are contained in the OJP Financial
Guide 3 and the award documents.




      3
          In April 2012, the Office on Violence Against Women issued the 2012 OVW
Financial Grants Management Guide. Though the grants in this audit were bound to the
criteria held in the OJP Financial Guide, we note that any recommendations implemented for
Grant No. 2005-WE-AX-0135 should correspond to the newly issued OVW financial guide as
applicable.


                                            iii
      We examined the ISC’s accounting records, financial and progress
reports, and operating policies and procedures, and found that the ISC:

        •   paid $6,497 in unallowable consultant costs from OVW
            Grant No. 2005-WE-AX-0135.

        •   made $26,692 in unallowable transfers between approved
            budget categories in OVW Grant No. 2005-WE-AX-0135.

        •   did not consistently submit semi-annual progress reports in a
            timely manner for all OJP awards in this audit.

        •   was not in compliance with two special conditions required for
            OJP Grant No. 2009-DC-BX-0086.

      This report contains four findings and recommendations, which are
detailed in the Findings and Recommendations section of the report. Our
audit objectives, scope, and methodology are discussed in Appendix I.




                                     iv
                                      Table of Contents


INTRODUCTION ................................................................................ 1
  Background....................................................................................... 1
  Our Audit Approach............................................................................ 4
FINDINGS AND RECOMMENDATIONS................................................ 5
 Prior Audits ....................................................................................... 5
 Internal Control Environment .............................................................. 6
 Drawdowns ....................................................................................... 7
 Grant Expenditures ............................................................................ 8
   Direct Costs ................................................................................... 8
   Indirect Costs ................................................................................. 9
   Match Requirements ...................................................................... 10
 Budget Management and Control ....................................................... 10
 Grant Reporting ............................................................................... 11
   Financial Reporting ........................................................................ 12
   Progress Reports ........................................................................... 13
 Compliance with Grant Requirements ................................................. 15
 Program Performance and Accomplishments ....................................... 16
 Closeout Activity .............................................................................. 18
 Conclusion ...................................................................................... 18
 Recommendations ........................................................................... 19
APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 20
APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS ............. 22
APPENDIX III: STATE OF IDAHO SUPREME COURT’S
    RESPONSE TO THE DRAFT REPORT ......................................... 23
APPENDIX IV: OFFICE ON VIOLENCE AGAINST WOMEN
    RESPONSE TO DRAFT AUDIT REPORT ..................................... 27
APPENDIX V: OFFICE OF JUSTICE PROGRAMS’ RESPONSETO
    DRAFT AUDIT REPORT ............................................................ 29
APPENDIX VI: OFFICE OF THE INSPECTOR GENERAL ANALYSIS
    AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE
    REPORT .................................................................................. 31
  AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN
  AND OFFICE OF JUSTICE PROGRAMS GRANTS AWARDED
            TO THE IDAHO SUPREME COURT
                    BOISE, IDAHO

                               INTRODUCTION

      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of four grants totaling $3,079,633
awarded by the Office on Violence Against Women (OVW) and the Office of
Justice Programs (OJP) to the Idaho Supreme Court (ISC), as shown in
Exhibit 1.

EXHIBIT 1: GRANTS AWARDED TO THE ISC
  GRANTING                                           PROJECT
   AGENCY          AWARD NO.            AWARD DATE   END DATE       AMOUNT
    OVW         2005-WE-AX-0135          09/26/05    02/29/12     $ 2,579,633
    OJP         2009-DC-BX-0086          09/10/09    08/31/12         200,000
    OJP         2009-MO-BX-0044          09/16/09    03/31/13         250,000
    OJP         2010-MO-BX-0046          09/16/10    06/30/12          50,000
                                                       TOTAL:     $3,079,633
Source: OJP’s Grant Management System

Background

       Created in 1995, the OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. The OVW’s stated mission is to provide federal
leadership in developing the nation’s capacity to reduce violence against
women, and administer justice for and strengthen services to victims.
Currently, the OVW administers 3 formula-based and 18 discretionary grant
programs, established under the Violence Against Women Act (VAWA) and
subsequent legislation.

      The OVW’s discretionary grant programs work to support victims and
hold perpetrators accountable through promoting a coordinated community
response. Funding is provided to local, state, and tribal governments;
courts; non-profit-organizations; community-based organizations; secondary
schools; institutions of higher education; and state and tribal coalitions.

       OJP works to provide innovative leadership to federal, state, local, and
tribal justice systems, by disseminating state-of-the-art knowledge and
practices across America, and providing grants for the implementation of
these crime fighting strategies. OJP does not directly carry out law
enforcement and justice activities; rather, OJP works in partnership with the
justice community to identify the most pressing crime-related challenges
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges.

      As the third branch of the Idaho State Government, the Judicial Branch
strives to provide access to justice through the timely, fair, and impartial
resolution of cases. The ISC is the state's court of last resort. The ISC
hears appeals from final decisions of the district courts, as well as from
orders of the Public Utilities Commission and the Industrial Commission. It
has original jurisdiction to hear claims against the state and to issue writs of
review, mandamus, prohibition, and habeas corpus, and all writs necessary
for complete exercise of its appellate jurisdiction. The ISC may also review
decisions of the Court of Appeals upon petition of the parties or its own
motion. 1

       This audit covers one OVW grant and three OJP grants awarded to the
ISC. Grant No. 2005-WE-AX-0135 was made under the OVW’s Grants to
Encourage Arrest Policies Program in the amount of $2,579,633. The project
intends to enhance victim safety and offender accountability in cases of
domestic violence and dating violence by encouraging jurisdictions to
implement mandatory and pro-arrest policies as part of a coordinated
community response. With this award, the ISC intended to increase the
capacity of existing domestic violence courts; create a centralized leadership
position to provide statewide support to domestic violence courts; increase
judicial monitoring domestic violence offenses; increase assistance to
victims; and, establish the Idaho Coordinated response to Domestic Violence
and Sexual Violence Team in all seven state judicial districts to improve
inter-agency cooperation.

       Grant No. 2009-DC-BX-0086 was made under OJP’s Drug Court
Discretionary Grant Program, which is designed to assist states, state courts,
local courts, units of local government, and Indian tribal governments in
developing and establishing drug courts for substance-abusing adult and
juvenile offenders. The Drug Court Discretionary Grant Program is awarded
in one of three areas: (1) implementation, (2) enhancement, or
(3) statewide. The ISC’s award was originally made under the
“enhancement” category. However, this appeared to be a clerical mistake in
the application and submission progress. The ISC submitted budget and

      1
          Statements regarding the mission and intent of the OVW, OJP, and ISC are from
the applicable agency’s website (unaudited).


                                            2
project descriptions for approval noting that they were for the statewide
program. ISC officials addressed the mistake in November 2011, upon
realizing that the new performance metrics were not applicable to the
statewide program. The ISC contacted OJP officials to address the issue.
OJP officials agreed that the ISC’s program was reflective of a statewide
award, and made the necessary changes to identify the ISC as a “statewide”
grantee. Because the ISC intended to apply as a “statewide” grantee, the
shift from “enhancement” to “statewide” did not affect our measurement of
goals and objectives as the application submitted to OJP for approval, and
the ISC’s actual performance, reflected goals of the “statewide” category. 2

      The Drug Court Discretionary Grant Program is designed to assist
states, state courts, local courts, units of local government, and Indian tribal
governments in developing and establishing drug courts for
substance-abusing adult and juvenile offenders. Drug court programs
funded by the Drug Court Discretionary Grant Program are required by law
to target nonviolent offenders. The program supports the following activities:
adult drug court implementation, single jurisdiction drug court enhancement,
statewide drug court enhancement, and planning efforts.

      The ISC intended to use the drug court funds for system
improvements in the areas of: training and technical assistance for drug
court teams; enhancing an automated drug court data collection system;
and disseminating information to enhance or strengthen drug court
programs through use of a trained-peer review program and new training
curricula.

      The ISC’s stated intention for Grant No. 2009-MO-BX-0044 was to
expand the current JoAnn Wood Project, which was initially designed to
achieve a collaboration focused on developing and utilizing community
sentencing alternatives to reduce the flow of individuals with co-occurring
disorders into the state prison system. The project aims to implement
selected new components dedicated to addressing the specific needs of
female offenders with co-occurring mental and substance use disorders,
emphasize cross systems training aimed at improving treatment and
supervision, and refine existing process and outcome evaluation design.

      For Grant No. 2010-MO-BX-0046, the ISC plans to develop a statewide
strategic plan to focus on improving outcomes for justice-involved persons
with mental illness and co-occurring substance use disorders. The plan aims

       2
          Enhancement grants are available to jurisdictions with a fully operational (at least
1 year) adult drug court to provide various drug court services. Statewide grants are
available to state agencies to improve, enhance, or expand drug court services.


                                               3
to include organizing and convening a broadly based, statewide task force
chaired by the Chief Justice of the ISC.


Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide 3 and the award
documentation. We tested the ISC’s:

   •   internal control environment to determine whether the internal
       controls in place for the processing and payment of funds were
       adequate to safeguard grant funds and ensure compliance with the
       terms and conditions of the grant;

   •   grant drawdowns to determine whether grant drawdowns were
       adequately supported and if the ISC was managing grant receipts in
       accordance with federal requirements;

   •   grant expenditures to determine the accuracy and allowability of
       costs charged to the grant;

   •   budget management and control to determine the ISC’s
       compliance with the costs approved in the grant budget;

   •   Federal Financial Reports (FFR) and progress reports to
       determine if the required reports were submitted in a timely manner
       and accurately reflect grant activity;

   •   grant objectives and accomplishments to determine whether the
       ISC is capable of meeting the grant objectives; and

   •   closeout activity to determine if grants which had reached their end
       date were appropriately closed.

     The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.


       3
         In April 2012, the OVW issued the 2012 OVW Financial Grants Management Guide.
Though the grants in this audit were bound to the criteria held in the OJP Financial Guide,
we note that any recommendations implemented for Grant No. 2005-WE-AX-0135 should
correspond to the newly issued OVW financial guide as applicable.


                                             4
                  FINDINGS AND RECOMMENDATIONS

      Our sample testing did not identify indications that the ISC was
      non-compliant in the following areas: internal control
      environment, drawdowns, indirect costs, match requirements,
      financial reporting, program performance and accomplishments,
      and monitoring of subgrantees and contractors. However, at
      the time of our audit, we found that the ISC had paid two
      consultants at a rate exceeding that which is allowable by the
      OJP Financial Guide, resulting in $6,497 in unallowable direct
      costs; had made $26,692 in unallowable budget transfers; did
      not consistently submit progress reports in a timely manner;
      and was not in compliance with two of the special conditions
      related to Grant No. 2009-DC-BX-0086.

Prior Audits

       The Office of Management and Budget (OMB) Circular A-133 requires
that non-Federal entities that expend $500,000 or more per year in Federal
awards have a single audit performed annually. The Idaho Judiciary
Department is a branch of the Idaho government and is therefore audited
within the state Single Audits. We determined that the three most recent
Single Audits for Idaho were for Fiscal Years (FY) 2009, 2010, and 2011.
We reviewed these audit reports and did not identify any issues specific to
the ISC. However, we also reviewed the FY 2011 audit of the Idaho Judicial
Department and identified the following issues:

  •   The ISC recorded a total of 26 adjusting entries in response to audit
      findings. Of the 26 adjusting entries, 22 were related to accrual
      adjustments totaling $26,855,847 and 4 related to audit adjustments
      totaling $611,238, with a total effect to net income of $27,459,102.
      These adjustments included recording accruals related to receivable,
      prepaid expenses, deferred revenues, and payables, corrections to
      capitalize depreciable assets, recording of depreciation expense, and
      reclassifications to correct accounts.

  •   The ISC included expenditures related to equipment and software that
      met the capitalization requirements under Generally Accepted
      Accounting Principles, but were not reported as a capital asset in the
      Department accounting records or closing package.

     The auditors issued recommendations for both issues identified above.
Specifically, the auditors recommended that the ISC analyze the cost/benefit
of implementing a control system which would allow for the recording of


                                     5
accrual adjustments and the preparation of financial statements and related
disclosures, and recommended that ISC management implement an internal
capitalization policy related to intangibles that is consistent with the
department materiality levels.

     Regarding the accrual adjustments, ISC officials conceded that because
the ISC contracts with an independent accounting firm to prepare the
financial statements and perform year-end accruals, they are not in
compliance with the Statement on Auditing Standards 115. ISC officials
stated that they understand this will continue to be a finding in subsequent
audits. In reference to the capitalization requirements, ISC management
reported that the specific accounting requirement had been communicated
to ISC staff to ensure that future costs will be recorded and tracked.

Internal Control Environment

      We reviewed the ISC’s internal control environment, including
procurement, receiving, and payment procedures; the payroll system; and
the ISC’s monitoring of subrecipients. To determine the controls in place,
we interviewed the ISC’s Financial Executive Officer and Grant Manager, and
we conducted sample testing of direct cost transactions to verify that the
controls are being effectively implemented. We conducted this review to
determine compliance with the terms and conditions of the grants, and to
assess risk.

       The ISC is covered under the fiscal policies of the State of Idaho and
utilizes a multi-layer approval process documenting the receipt of items
purchased and the payment of invoices. We reviewed 125 direct cost
transactions, and determined that sampled invoices were generally reviewed
and properly approved prior to payment.

       Employees are paid once a month, and payment is rendered based on
time sheets that each employee submits to a supervisor for approval. Time
sheets track the hours each individual works by project, allowing payment
from more than one account if an employee has worked on more than one
project during the pay period. Our review of direct costs included payroll
transactions, and for those items tested, we determined that time sheets
and personnel costs were also generally properly reviewed and approved
prior to payment.

     To determine the ISC’s policies related to the monitoring of
subrecipients, we interviewed the Statewide Domestic Violence Court
Coordinator (SDVCC) and the Project Director for Grants. The ISC does not
have a written policy on administering and monitoring sub-recipients,


                                      6
consultants or contractors. For OVW Grant No. 2005-WE-AX-0135, the
SDVCC reviewed time sheets and monthly statistical reports submitted by
the various districts funded under the award. The SDVCC also conducted
site visits at least once a year, and held an annual meeting with all
Coordinators. For the OJP awards, the Project Director for Grants reported
that most subrecipients were contracted for short time periods, and
therefore formal ongoing monitoring is not conducted. However, for
contracts which were carried out over longer time periods, the ISC staff
worked closely with the contractor to monitor the deliverables according to
each individual work order. As a best practice, the ISC should maintain a
written policy to monitor subrecipients.

Drawdowns

      To determine the procedures for drawing down grant funds, we
conducted interviews with ISC officials. We determined that the grants
awarded to the ISC are reimbursement based, and are therefore subject to
the OJP Financial Guide requirement that drawdown requests be timed to
ensure that Federal cash on hand is the minimum needed for disbursements
or reimbursements to be made immediately or within the next 10 days.

      We analyzed each grant in our audit to determine if the total actual
costs recorded in the accounting records were equal to, or in excess of, the
cumulative drawdowns as recorded by the OVW and OJP.

EXHIBIT 2: ANALYSIS OF DRAWDOWNS
                          TOTAL AMOUNT       TOTAL AMOUNT
     GRANT NUMBER            DRAWN             EXPENDED        DIFFERENCE
   2005-WE-AX-0135        $2,483,060          $2,483,060       $ -
   2009-DC-BX-0086           127,754             125,257         2,497
   2009-MO-BX-0044            43,426              43,426           -
   2010-MO-BX-0046            23,187              23,187           -
Source: OJP’s Grant Management System
; ISC accounting records.

      As shown in Exhibit 2, we noted that the ISC was cumulatively
overdrawn for Grant No. 2009-DC-BX-0086. ISC officials reported that the
discrepancy was due to a credit which had been issued on the same day the
drawdown had been made. We reviewed the ISC’s accounting records and
confirmed that a credit in this amount had been issued on the same date as
the draw had been made. Therefore, we make no recommendations in this
area.




                                         7
Grant Expenditures

      To determine if grant expenditures were allowable, reasonable, and in
compliance with the terms and conditions of the award, we reviewed policies
and procedures and conducted sample testing the categories of direct costs,
indirect costs, and matching.

Direct Costs

      As noted in the Internal Controls section of this report, our review
included 125 direct cost expenditures. For OVW Grant No.
2005-WE-AX-0135, we tested 60 transactions totaling $327,182. Generally,
we determined that the transactions tested were allowable, reasonable, and
in compliance with the terms and conditions of the award. However, as
shown in Exhibit 3, we identified two consultants that were paid at a rate
exceeding that which is allowable by the OJP Financial Guide.

EXHIBIT 3: UNALLOWABLE CONSULTANT RATES
             HOURS        BILLED      TOTAL          ALLOWABLE     TOTAL     UNALLOWABLE
   DATE      BILLED        RATE       PAID              RATE     ALLOWABLE   OVERPAYMENT
 Consultant #1 4
 11/01/07         5        $75       $     375        $56.25     $     281    $     94
 11/29/07         5         75             375         56.25           281          94
 09/01/08     34.5          75           2,588         56.25         1,941         647
 09/26/08        43         75           3,225         56.25         2,419         806
 Consultant #2
 07/17/07     6.25         $75     $ 469   $56.25    $ 352                     $  117
 08/10/07       7.5         75        563   56.25       422                       141
 08/10/07        28         75      2,100   56.25     1,575                       525
 08/30/07    13.75          75      1,031   56.25       773                       258
 10/18/07         6         75        450   56.25       338                       113
 11/29/07        19         75      1,425   56.25     1,069                       356
 12/18/07    11.75          75        881   56.25       661                       220
 01/31/08        11         75        825   56.25       619                       206
 03/04/08    16.75          75      1,256   56.25       942                       314
 05/15/08    13.75          75      1,031   56.25       773                       258
 06/17/08    23.75          75      1,781   56.25     1,336                       445
 07/11/08    20.25          75      1,519   56.25     1,139                       380
 09/26/08     17.5          75      1,313   56.25       984                       328
 09/26/08    47.25          75      3,544   56.25     2,658                       886
 03/13/09     16.5          75      1,238   56.25       928                       309
                            TOTAL UNALLOWABLE OVERPAYMENTS:                    $6,497
Source: OJP Financial Guide, ISC accounting records.


      4
         Individual names have been removed to protect privacy. These names have
already been provided to the ISC, and will be provided to the OVW upon request.



                                                 8
      The OJP Financial Guide requires that award recipients obtain written
prior approval if compensation for consultant services is in excess of $450
per day, or $56.25 per hour. We determined that the ISC had not obtained
prior approval for the excess costs. Therefore, we question the amount paid
in excess of the allowable rate of $56.25 per hour as unallowable, and
recommend that the OVW coordinate with the ISC to remedy the $6,497 in
unallowable consultant costs.

Indirect Costs

      The OJP Financial Guide defines indirect costs as the costs of an
organization that are not readily assignable to a particular project, but are
necessary to the operation of the organization and the performance of the
project. The ISC received an approved indirect cost rate for FYs 2005
through 2011, and budgeted indirect costs for each award in this audit. 5
However, the only grant to have actual indirect charges was OVW Grant No.
2005-WE-AX-0135. Therefore, the analysis below is related only to that
award.

     As shown in Exhibit 4, we determined that the ISC’s indirect cost base
included direct costs with the exception of capitalized equipment and
contracts over $25,000. We calculated the ISC’s base by fiscal year using
that criteria, and compared the allowable amount with the amount actually
charged to the grant.

EXHIBIT 4: INDIRECT COST RATE ANALYSIS
                                APPROVED         INDIRECT       AMOUNT
                                INDIRECT          COSTS       CHARGED TO
  FY ENDING        BASE 6       COST RATE        ALLOWED         GRANT        DIFFERENCE
   06/30/06      $ 43,581         17.47%         $ 7,614       $ 7,614          $ -
   06/30/07       154,669         20.70           32,017        32,017             -
   06/30/08       199,824         21.79           43,542        43,130           412
   06/30/09       323,361         20.74           67,065        67,065             -
   06/30/10       333,007         16.97           56,511        56,213           299 7
   06/30/11       423,924         16.80           71,219        71,118           101
Source: OJP Financial Guide, ISC accounting records.

     As shown above, we identified no instance in which the ISC had
charged indirect costs to the grant in excess of the approved amount.


       5
          The ISC did receive an approved indirect cost rate for FY 2012, but we have not
included it in our analysis as the complete fiscal year is not entirely within our scope.
       6
          This amount represents the ISC’s approved direct costs for the fiscal year
excluding capitalized equipment and contracts in excess of $25,000.
       7
          Throughout this report, differences in the total amounts are due to rounding.


                                             9
      To determine if the indirect costs charged to the award were allowable,
reasonable, and in compliance with the terms and conditions of the award,
we selected 10 indirect cost transactions for testing. We determined that all
transactions tested were generally allowable and supported. Therefore, we
make no recommendations in this area.

Match Requirements

      Matching requirements vary across OJP programs. Funds provided for
a match must be used to support a federally funded project and must be in
addition to (and therefore supplement) funds that would otherwise be made
available for the stated program purpose. Match is typically stated as a
percentage of the total project costs for an award.

      We reviewed each award in this audit and determined that Grant Nos.
2009-DC-BX-0086, 2009-MO-BX-0044, and 2010-MO-BX-0046 included a
match requirement from the ISC. Specifically, we found that the grants
require matching costs in the amounts of $66,695, $203,925 and $15,840
respectively. We determined that no match had been recorded for Grant No.
2010-MO-BX-0046 at the time of our audit. We reviewed the ISC
accounting records and FFRs and determined that match costs had been
reported for Grant Nos. 2009-DC-BX-0086 and 2009-MO-BX-0044. To verify
that the costs reported were accurate and within terms and conditions of the
grant, we judgmentally selected five transactions from each award to test
for expenditure allowability. We determined that the matching costs
examined were generally appropriate and allowable.

Budget Management and Control

       For each grant, the ISC received an approved budget broken down by
categories including Personnel, Fringe Benefits, Travel, Equipment, Supplies,
Construction, Contractual costs, and Other costs. If changes are
subsequently made, the OJP Financial Guide requires that the recipient
initiate a Grant Adjustment Notice (GAN) for budget modification if the
proposed cumulative change is greater than 10 percent of the total award
amount.

       We conducted detailed analysis of expenditures by budget category,
and determined that the ISC was not cumulatively over budget for any of
the OJP awards in this audit. However, for OVW Grant No.
2005-WE-AX-0135, the ISC had transferred funds from the personnel
category to the contracts category based on a request for clarification from
the OVW. Specifically, in June 2009, an OVW official requested that the ISC
clarify whether or not individuals budgeted under the personnel category


                                     10
were employees of the ISC, noting that if the positions were consultant or
contracted positions, the associated costs should be reflected under the
consultants/contracts category.

       Per that communication, the ISC adjusted their budget internally to
reflect the costs for the Domestic Violence Case Managers as consultants,
and transferred $530,710 from the Personnel category to the
Consultants/Contracts category. However, the required GAN was not
submitted for agency approval, and therefore, the most recent approved
budget still reflects the $530,710 as having been budgeted under the
personnel category. This resulted in the ISC being significantly under
budget in the personnel category, and $218,021 over budget in the
Contractual category. Additionally, the ISC was over budget by $66,634 in
the travel category.

 EXHIBIT 5: BUDGET ANALYSIS FOR OVW
            GRANT NO. 2005-WE-AX-0135
   BUDGET CATEGORY      AMOUNT APPROVED      AMOUNT EXPENDED       AMOUNT OVER BUDGET
  Personnel               $     530,710         $     186,012              -
  Travel                         78,750               145,384          $ 66,634
  Equipment                       4,800                 4,253              -
  Supplies                       18,260                10,903              -
  Contractual                 1,469,583             1,687,604           218,021
  Other                         121,860               119,492              -
                                           TOTAL OVER BUDGET:          $284,655
        ALLOWABLE DIFFERENCE, 10 PERCENT OF TOTAL PROJECT COSTS:       $257,963
                                   UNALLOWABLE PORTION:                $26,692
 Source: OJP’s Grant Management System; ISC accounting records.

      As previously noted, the OJP Financial Guide requires that a GAN be
submitted for agency approval when the proposed change is in excess of 10
percent of the cumulative award amount. We have reduced the total
amount over budget from the amount which would have been allowable
according to the terms and conditions of the OJP Financial Guide. As a
result, we question a total $26,692 in unallowable budget transfers. We
recommend that the OVW coordinate with the ISC to remedy the $26,692 in
unallowable budget transfers.

Grant Reporting

      We reviewed the FFRs and Categorical Assistance Progress Reports
(progress reports) to determine if the required reports had been submitted
accurately, and within the timeframes required by the OJP Financial Guide.




                                          11
Financial Reporting

      The OJP Financial Guide requires that grant recipients report
expenditures online using the FFR no later than 30-days after the end of
each calendar quarter. We reviewed the four most recent FFRs for each
grant, and determined that financial reporting had been submitted in a
timely manner.

      We also reviewed financial reporting for accuracy. According to the
OJP Financial Guide, recipients shall report the actual expenditures and
unliquidated obligations incurred for the reporting period on each financial
report. As shown in Exhibit 6, we determined that financial reporting was
accurate in 15 of the 16 periods we reviewed.

EXHIBIT 6: FEDERAL FINANCIAL REPORT EXPENDITURE ACCURACY
                                                                     CUMULATIVE
                                                      CUMULATIVE     DIFFERENCE
                                   CUMULATIVE            GRANT         BETWEEN
                                     GRANT           EXPENDITURES     REPORTS &
 REPORT       REPORT PERIOD       EXPENDITURES      PER ACCOUNTING   ACCOUNTING
   NO.       FROM - TO DATES       PER REPORT          RECORDS         RECORDS
 Grant No. 2005-WE-AX-0135
    24      04/01/11 - 06/30/11     $2,017,669        $2,017,669          -
    25      07/01/11 - 09/30/11         2,128,404      2,128,405          -
    26      10/01/11 - 12/31/11         2,293,563      2,293,563          -
   27       01/01/12 - 02/29/12         2,483,060      2,375,820     ($107,240)
 Grant No. 2009-DC-BX-0086
     8      04/01/11 - 06/30/11     $     96,561      $    96,561         -
     9      07/01/11 - 09/30/11          112,538          112,538         -
    10      10/01/11 - 12/31/11          116,265          116,265         -
    11      01/01/12 - 03/31/12          127,754          127,754         -
 Grant No. 2009-MO-BX-0044
     7      04/01/11 - 06/30/11     $     23,481      $    23,481         -
     8      07/01/11 - 09/30/11           28,487           28,487         -
     9      10/01/11 - 12/31/11           38,390           38,390         -
    10      01/01/12 - 03/31/12           43,426           43,426         -
 Grant No. 2010-MO-BX-0046
     3      04/01/11 - 06/30/11     $     12,120      $    12,120         -
     4      07/01/11 - 09/30/11           16,398           16,398         -
     5      10/01/11 - 12/31/11           23,187           23,187         -
     6      01/01/12 - 03/31/12           24,258           24,258         -
Source: OJP’s Grant Management System and ISC accounting records.




                                          12
      As shown in Exhibit 6, we determined that the final FFR for OVW Grant
No. 2005-WE-AX-0135 did not initially reconcile to the amounts recorded in
the ISC’s accounting records for the corresponding time period. However,
we were able to verify that costs incurred during the award period were not
disbursed in full until May 14, 2012. Because we were able to determine
that the reported expenditures had been incurred during the award period,
and because all other reports in our review had been submitted accurately,
we make no recommendations in this area.

Progress Reports

      According to the OJP Financial Guide, progress reports are due
semiannually on January 30 and July 30 for the life of the award. To verify
the timely submission of progress reports, we reviewed the last four
progress reports submitted for each grant to determine if the report had
been submitted as required by the OJP Financial Guide. As shown in
Exhibit 7 below, we determined that the OVW progress reports were
submitted in a timely manner. However, 7 of the 11 OJP progress reports in
our review were submitted late.

EXHIBIT 7: CATEGORICAL ASSISTANCE PROGRESS REPORT
           HISTORY
 REPORT            REPORT PERIOD
  NO.             FROM - TO DATES         DUE DATE    DATE SUBMITTED   DAYS LATE
Grant No.   2005-WE-AX-0135
   11          07/01/10 - 12/31/10        01/30/11       01/26/11         0
   12          01/01/11 - 06/30/11        07/30/11       07/28/11         0
   13          07/01/11 - 12/31/11        01/30/12       01/26/12         0
   14          01/01/12 – 02/29/12        05/31/12       05/31/12         0
Grant No.   2009-DC-BX-0086
   2           01/01/10 - 06/30/10        07/30/10       07/27/10         0
   3           07/01/10 - 12/31/10        01/30/11       01/31/11         1
   4           01/01/11 - 06/30/11        07/30/11       07/28/11         0
   5           07/01/11 - 12/31/11        01/30/12       07/31/12         1
Grant No.   2009-MO-BX-0044
   2           01/01/10 - 06/30/10        07/30/10       11/02/10         95
   3           07/01/10 - 12/31/10        01/30/11       01/31/11          1
   4           01/01/11 - 06/30/11        07/30/11       07/28/11          0
   5           07/01/11 - 12/31/11        01/30/12       01/31/12          1
Grant No.   2010-MO-BX-0046
   1           07/01/10 - 12/31/10        01/30/11       01/31/11         1
   2           01/01/11 - 06/30/11        07/30/11       07/28/11         0
   3           07/01/11 - 12/31/11        01/30/12      07/29/10          1
Source: OJP’s Grants Management System; OJP Financial Guide.




                                         13
      We provided ISC officials with the opportunity to explain why progress
reports for the OJP awards were frequently submitted late, but those officials
were unsure of the cause. Therefore, we recommend that OJP coordinate
with the ISC to establish policy ensuring the timely submission of future
progress reports. We make no corresponding recommendation to the OVW,
since the OVW reports in our review had l been generally submitted
according to the terms and conditions of the OJP Financial Guide.

       We also reviewed the progress reports for accuracy. According to the
OJP Financial Guide, the funding recipient agrees to collect data appropriate
for facilitating reporting requirements established by Public Law 103-62 for
the Government Performance and Results Act. The funding recipient should
ensure that valid and auditable source documentation is available to support
all data collected for each performance measure specified in the program
solicitation. We reviewed progress reports for the last year to determine if
they contained all the required program performance statistical data. We
also reviewed and compared statistical data to verify performance claims for
the last year of the grants.

      In order verify the information in progress reports, we selected a
sample of data from the last two progress reports submitted for each grant
and traced it to supporting documentation maintained by ISC officials. 8 For
OVW Grant No. 2005-WE-AX-0135, we requested verification in the following
areas: (1) victims served, (2) protection orders requested, (3) protection
orders granted, (4) training events provided, and (5) policies and protocols
that had been developed, substantially revised or implemented during the
reporting period. The Statewide Domestic Violence Court Coordinator
provided extensive source documentation which supported the claims made
to the OVW on progress report numbers 12 and 13.

      For OJP Grant No. 2009-DC-BX-0086 we requested verification in the
areas of: (1) automated drug court cases, (2) training events, and
(3) improvements to the Idaho Statewide Trial Court Automated Records
System. For OJP Grant No. 2009-MO-BX-0044, we requested verification in
the areas including: (1) the design of a strategic collaborative plan, (2)
partnerships providing mental health services, (3) new individuals served by
the grant program, and (4) collaborating agencies. Finally, for OJP Grant
No. 2010-MO-BX-0046, we requested verification in areas including (1)
agencies providing resources, (2) collaborative members involved in the
planning process, (3) the total number of participating agencies, and (4)
judges appointed to assist with the program. The Project Director for Grants

      8
         For OVW Grant Number 2005-WE-AX-0135 we selected our sample from the
progress reports covering 2011, as the final report only covered a 2-month period.


                                          14
was able to provide extensive source documentation which supported the
claims made to OJP in the progress reports we tested.

       In summary, we determined that valid and auditable source
documentation was provided for all statistical and performance related
information in our sample test, and we did not identify areas in which
progress reports appeared to be inaccurate. We make no recommendations
in this area.

Compliance with Grant Requirements

      We reviewed each award package and tested all verifiable special
conditions to determine if the ISC was in compliance with all grant
requirements. Additionally, as noted throughout this report, we conducted
our analysis according to the terms and conditions of the OJP Financial
Guide.

      As noted previously, we determined that the ISC paid two consultants
from OVW Grant No. 2005-WE-AX-0135 at a rate exceeding that which is
allowable by the OJP Financial Guide, made unallowable budget transfers,
and submitted progress reports late, and we have made recommendations in
these areas as appropriate.

      In testing compliance with grant requirements, we also determined
that the ISC was not able to provide documentation demonstrating
compliance with the following special conditions related to Grant No.
2009-DC-BX-0086:

  •   Recipient agrees to submit a written strategy describing the
      jurisdiction’s plan for sustaining the drug court program after Federal
      financial assistance has ended. The sustainability plan must be
      submitted by the end of the first year of the grant period in order to be
      in compliance with this requirement.

  •   Recipient agrees to submit an evaluation plan and/or management
      information system plan for review and approval within 180 days from
      the date of acceptance of this award. The recipient agrees to submit
      finalized evaluation report to the Bureau of Justice Assistance prior to
      the end of the grant period.

      We were not provided with documentation indicating that these special
conditions had been met. We contacted officials at OJP to determine if the
change in program categorization affected the requirements of the special
conditions listed in the award documentation. OJP officials noted that the
special conditions may not be applicable to the statewide award, but noted


                                      15
that the special condition still exists. The OJP Financial Guide notes that
direct recipients are responsible for complying with the specific terms and
special conditions of the award, and additionally requires that a GAN be
initiated for changes in scope, duration, activities, or other significant areas.
A GAN releasing the special conditions detailed here was not submitted.
Therefore, we recommend that OJP coordinate with the ISC to determine the
applicability of all special conditions in the award documentation, and
appropriately address the special conditions through submission of the
required documents.



Program Performance and Accomplishments

      The purpose of the grants awarded to the ISC is dependent upon the
grant program. The intent of the OVW’s Grants to Encourage Arrest
Program (Arrest Program) is to enhance victim safety and offender
accountability in cases of domestic violence and dating violence by
encouraging jurisdictions to implement mandatory and pro-arrest policies as
an effective domestic violence intervention that is part of a coordinated
community response. An integral component of Arrest Program initiatives is
the creation and enhancement of collaborative partnerships between
criminal justice agencies, victim services providers, and community
organizations which respond to domestic violence.

      The intent of OJP’s Drug Court Discretionary Grant Program is to assist
states, state courts, local courts, units of local government, and Indian tribal
governments in developing and establishing drug courts for substance-
abusing adult and juvenile offenders. Drug court programs funded by the
Drug Court Discretionary Grant Program are required by law to target
nonviolent offenders. The program supports the following activities: adult
drug court implementation, single jurisdiction drug court enhancement,
statewide drug court enhancement, and planning efforts.

      Finally, the primary purpose of the Justice and Mental Health
Collaboration grant program is to increase public safety by facilitating
collaboration among the criminal justice, juvenile justice, and mental health
and substance abuse treatment systems to increase access to mental health
and other treatment services for those individuals with mental illness.

      The specific goals of Grant No. 2005-WE-AX-0135, funded under the
Arrest Program, were to: (1) increase the capacity of the existing Ada
County Domestic Violence Court and develop two model integrated courts in
rural areas with a single specialized judge handling all cases; (2) create a
state-level position of Domestic Violence Resource Coordinator to provide


                                       16
support to the entire state including the existing Ada County court, the two
new domestic violence courts, and the remaining four districts in the state;
(3) assign three domestic violence case managers to provide judicial
monitoring of offenders, track cases, and assist victims with comprehensive
services; and (4) establish the Idaho Coordinated Response to Domestic and
Sexual Violence Team in all seven judicial districts to improve inter-agency
cooperation.

       The specific goals of Grant No. 2009-DC-BX-0086, funded under the
Drug Court Discretionary Grant Program, were to were to: (1) improve
quality and completeness of drug court data in the statewide information
system through improvements in the system and increased data quality
monitoring and training; (2) increase and standardize drug court operational
training and continuing education; (3) achieve greater consistency in
compliance with statewide guidelines among all Idaho drug courts through
use of a structured, peer on-site review process with feedback and
information for improvement; and (4) develop training, and innovative
information dissemination efforts to increase the use of evidence-based
practices.

      The specific goals of Grant No. 2009-MO-BX-0044, funded under the
Justice and Mental Health Collaboration Program (JMHCP), were to:
(1) develop a state-recognized Regional Justice Mental Health Task Force;
(2) screen all jail bookings for mental illnesses and/or coexisting disorders;
(3) expand capacity of the system of mental health courts; (4) improve
responses to women offenders in the justice system in Bonneville County;
(5) improve fidelity and effectiveness of specific interventions used in the
system, including mental health collaborative efforts; and (6) develop a
comprehensive process and outcome evaluation design.

       The specific goals of Grant No. 2010-MO-BX-0046, also funded under
the JMHCP, were to: (1) develop a strategic plan for improved outcomes for
justice involved persons with mental illness; (2) improve outcomes for
justice involved women with mental illness or co-occurring mental and
substance use disorders; and (3) improve outcomes for justice involved
veterans with mental illness or co-occurring mental and substance use
disorders.

      In order to assess program performance and accomplishments, we
reviewed the agency solicitations and grant documentation, and interviewed
ISC officials to determine the goals and objectives of the program, and
whether those goals and objectives have been or are being implemented.
Each award contained multiple goals with corresponding objectives. We
judgmentally selected one goal from each original award, and from each


                                      17
supplement to that award, if applicable, and requested that the ISC provide
evidence demonstrating that the goals and objectives of the award had been
met or are sufficiently in progress.

      The ISC was able to support their claims of achievement pertaining to
the goals stated above. We found no indication that the ISC would be
unable to meet current or future objectives of grant related programs, and
we make no recommendations in this area.

Closeout Activity

       According to the OJP Financial Guide, award recipients have 90 days
after the end date of the award to close out the award. Also, award
recipients are to provide a cash reconciliation, make the final drawdown, and
submit all required final reporting to the granting agency. As noted in
Exhibit 8, we determined that one of the four grants in this audit had
reached its closeout date.

EXHIBIT 8: CLOSEOUT STATUS OF GRANTS AWARDED TO THE ISC
                                               REQUIRED    CLOSEOUT STATUS
                                                PROJECT    PER OJP GRANTS
                        PROJECT     PROJECT    CLOSEOUT      MANAGEMENT
      AWARD NO.        START DATE   END DATE     DATE           SYSTEM
    2005-WE-AX-0135     07/01/05    02/29/12   05/29/12     Final Approved
Source: OJP’s Grants Management System.

      We determined that the required reporting was submitted on time, and
no drawdowns were made outside the allowable period. We did identify
costs which had been recorded in the accounting records after the award end
date, but we were able to determine that the costs were generally allowable,
and had been incurred during the award period. We make no
recommendations in this area.

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant, and to determine program performance and
accomplishments. We examined the ISC’s accounting records, budget
documents, financial and progress reports, and operating policies and
procedures. We found that the ISC:

        •   paid $6,497 in unallowable consultant costs from OVW Grant No.
            2005-WE-AX-0135,



                                      18
        •   made $26,692 in unallowable transfers between approved
            budget categories in OVW Grant No. 2005-WE-AX-0135,

        •   did not consistently submit semi-annual progress reports in a
            timely manner for all OJP awards in this audit, and

        •   was not in compliance with two special conditions required for
            OJP Grant No. 2009-DC-BX-0086.

Recommendations

We recommend that the OVW coordinate with the ISC to:

     1. Remedy the $6,497 in unallowable consultant costs.

     2. Remedy the $26,692 in unallowable transfers between approved
        budget categories.

We recommend that OJP coordinate with the ISC to:

     3. Ensure that semi-annual progress reports are submitted according
        to the requirements of the OJP Financial Guide.

     4. Ensure that all special conditions for Grant No. 2009-DC-BX-0086
        are handled according to the requirements of the OJP Financial
        Guide.




                                     19
                                                                 APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

       The objectives of the audit are to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) financial status and progress
reports, (7) grant requirements, (8) program performance and
accomplishments, and (9) monitoring of subgrantees and contractors. We
determined that property management and program income were not
applicable to these awards. We tested compliance with what we consider to
be the most important conditions of the grants. Unless otherwise stated in
this report, the criteria we audit against are contained in the OJP Financial
Guide and the award documents.

      Our audit concentrated on, but was not limited to, the award date of
Grant No. 2005-WE-AX-0135 on September 26, 2005 through June 22,
2012, the day our field work concluded. This was an audit of OVW Grant No.
2005-WE-AX-0135 and OJP Grant Nos. 2009-DC-BX-0086, 2009-MO-BX-
0044, and 2010-MO-BX-0046 awarded to the ISC. The ISC has drawn down
a total of $2,677,426 in grant funds as of May 22, 2012.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we performed sample testing in five areas,
which were grant expenditures (including personnel expenditures), Financial
Reports, progress reports, matching costs, and indirect costs. In this effort,
we employed a judgmental sampling design to obtain broad exposure to
numerous facets of the awards reviewed, such as dollar amounts,
expenditure category, or risk. However, this non-statistical sample design
does not allow a projection of the test results for all grant expenditures or
internal controls and procedures.

     In addition, we evaluated internal control procedures, drawdowns,
budget management and controls, compliance with grant requirements,
program performance and accomplishments, and the ISC’s monitoring of
subrecipients. However, we did not test the reliability of the financial


                                      20
management system as a whole and reliance on computer based data was
not significant to our objective.




                                  21
                                                                         APPENDIX II

                 SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS 9                               AMOUNT                    PAGE

Unallowable Consultant Costs
                                                    $6,497                    10
Unallowable Budget Transfers
                                                   $26,692                    13
TOTAL QUESTIONED COSTS                            $33,189

TOTAL DOLLAR-RELATED FINDINGS                     $33,189




      9
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation


                                           22
                                                                                                                     APPENDIX III

                               STATE OF IDAHO SUPREME COURT’S
                                RESPONSE TO THE DRAFT REPORT


                                              TH E STATE O F IDAHO
                                                  SUPRH.·[E COURT




                                                                                                       . " ... ST'''' STOCcr
     00l.AN0 GAMI." ~l
                                                                                                          Pc) 80"    ""20
                                                                                                     OO'S£ .0 • ..., . :"'.'.."0·
"""""CIAl E>:EC<JTM OF!'IC£~
_ ','~"""," OI """,""."'"                                                                                  I"""''''''""'''
                                                                                                        F""~.;n.o · :>, ...




                                                                    August 15,2012



           David M. Shecren
           Regio na l Aud it Manager
           Dcnver Regional Audit O ffi ce
           Office of the Inspector General
           U.S. Departme nt of Justice
           1120 Lincoln, Suite 1500
           Denver. CO 80203

           Dear Me. Sheeren;

           [n response to the draft aud it report. dated August 2, 20 12, thc Idaho Supreme Court
           would like to respond to each recommcndation made regarding the DOJ Gran ts.

           We would like to respond to each ofthc recommendations idcntified on page 20 of the
           draft audit repo rt.

            Finding I Reco mmendation I - OVW Gnant No. 200S_WE_AX_0135

            Remedy the $6,497 in unallowable consultant costs.

            Response I
            With regard to the contracts betwee n the Idaho Supreme Court. Consultant I and
            Consullant 2. wherein we contracted with these professional rescarchers for an evaluation
            of domestic violence courts. We were app roved by OVW 10 conduct and evaluation of
            DV Courts in the 6'h a nd i h Judicial Districts for $42.000. An evaluation by neutral
            professio nal researchers was needed so that vve could show judges, court ad ministrators.
            legislators and other stakeholders that domestic violence courts o Ulcomes were s\L        ccessful
            in keeping victims safe and hold ing offenders accountable. Proof ofS\Lcccssfuloutcomes
            was required to move forward wilh a request for fund ing that would sustain domestic
            violence coun s when gra nt money c ndl-d. In 2006, the ISC info mled OVW that we
            wo uld be able to obtain an e va luation fo r $30.000 verse Ihc $42.000 originally approved
            (I.l":' , ) ' he court's dose proximity 10 the Idaho State Unive rsit y and the availabilily of




                                                           23

graduate students who assisted in data collection and the evaluation report. Because
OVW approved the $30,000 evaluation, ISC was under the impression that the only
agreement ISC had to worry about was how 1 gel a thorough evaluation Ihat would
                                               0
measure the outcomes we needed for sustainability completed for under $30,000. The
contract amount of$30,000 included the consultant's expenses and supplies (including
transcription costs) to complete thc contract. The tasks to be completed by Consultant I
and Consultant 2 pursuant to the contract, such as qualitative focus groups with judges,
qualitative and quantitative analysis of the data, etc., warrant an hourly ratc that is
congruent with doctorate level researchers. Therefore, our focus was on keeping the costs
associated with this evaluation within the OVW budget amount.

The final evaluation was completed for the OVW grant amount awarded and it
accomplished OVW's and ISC's objective of"DV Court sustainably." Attached is a
copy of the Comprehensive Evaluation and Executive Summary. See Attachment I and
2.

Finding I Recommendation 2 - OVW Grant No. 2005-WE-AX-0I35

Remedy the $26,692 in unallowable transfers between approved budget categories.

Response 2-

As stated on page I I of the draft audit report, "in June 2009, an OVW official requested
that the ISC clarify whether or nol individuals budgeted under the personnel category
were employees of the ISC, noting that if the positions were consultant or contracted
positions. the associated costs should be reflected under the consultants/contracts
category.

 Per that communication, the ISC adjusted their budget internally to reflect the costs for
 the Domestic Violence Case Managers as consultants, and transferred $530,710 from the
 PersoIUlel category to the Consultants/Contracts category."

 ISC has the supporting emails which approved this change identified abovc by 010.
 Based on the emails attached in Attachment 3, the ISC is requesting that OVW review thc
 issue and correspondence attached and please consider submitting a OMS budget
 adjustment based on the already approved budget change. The ISC realizes this was an
 error back in 2007 that was never correctly handled through the OMS system. We
 apologize for the confusion and the current hassle on OVW's part.




                                            24

Find ing I Recommendation 3 - OJP Grant # 2009-DC-8X-0086, 2009-MO-8X-0044
and 2010-MO-BX-0046

Ensure that semi-annual progress reports are submitted according to the requirements of
the OJP Financial Guide.

Response 3-

There are seven reports cited in this finding. Six of these repons arc shown as being late
by one day each. The reason for this degree of lateness is that the project manager
thought that the reports were due on the last day ofthe month. However, in a month with
31 days, filing the report on the last day ofthe month caused the report to be late by one
day inasmuch as the actual requirement is to file the report no later than 30 days after the
end of the reporting period.

In the case of the report that was shown as 95 days late research into e-mails with the
Project Officer indicates that the following took place: The report was actually initially
filed in a timely manner. However, on October 10111 the newly assigned federal grant
project officer notified the project director that the required data attachment (upload from
the Performance Measurement Tool data system) to the progress report was missing. The
project director researched this issue and resubmitted the data attachment with the
 progress report. This look a few days but it is not dear exactly when this was actually
submitted. The amended report with the data attachment was "accepted" in the GMS
                                                                nd
 systcm by the Federal Grant Project Officer on November 2 • Please see Attachment 4.

The project director will calendar these reports to be submitted earlier in the month in
which they are due, with a copy to the grants monitor in the Idaho Supreme Court who
will also monitor the submission date to avoid late reports in the future.

 Finding I Recommenda tion 4 - OJP Grant # 2009~DC-BX-0086. 2009-MO-BX-0044
 a nd 2010-MO-BX-0046
 Ensure that all special conditions for Grant No. 2009-DC-BX-0086 are handled according
 to the requirements of the OJP Financial Guide.                                                  I
 Response 4-

 Two special conditions are noted as not having been satisfied.

 Condition #6 requires submission of a sustainability plan. Since this was called to our
 attention as being missing, this plan has becn submitted to the Federal Grant Project
 Officer. This was submitted on August 2, 2012. Please see Attachment 5.

  The second of the noted special conditions has been reported to us by our Federal Grant
  Project Officer to not be, in fact, required of statewide grants such as this project. As was
  described at the time of the audit visit to Boise, and later confirmed by the Federal Grant




                                             25

described al the lime of the audit visit to Boise, and later confirmed by the Federal Grant
Project Officer, this grant was awarded by BJA as an enhancement grant when it clearly
was a statewide grant. Certain conditions were attached related to the enhancement
grants which were not relevant to a statewide grant. Condition #8 was such a condition.
Our Federal Grant Project Officer stated on August 2 that she had also notified the 0 10
person of that determination.

If you have any q uestions, please call me at 334-2248.




~_00 ~
Roland F. Gam ~11
Financial Executive Officer


Cc:    Ms. Linda Taylor
       Lead Auditor, Audit Coordination Branch
       Audit and Review Division
       Office of Audit, Assessment, and Management
       Office of Justice Programs
       810 i h Street, N.W.
       Room TW8020
       Washington, DC 20531

       Mr. Rodney D. Samuels
       OVW Audit Liaison
       Office of Violence Against Women
       145 N. Street, N.E.
       Room IOW.723
       Washington, DC 20530




                                           26

                                                                                                   APPENDIX IV

               OFFICE ON VIOLENCE AGAINST WOMEN
                RESPONSE TO DRAFT AUDIT REPORT

                                                     U.S. Department of Justice

                                                     Office on Viol ence Again st Women




                                                     W(lshilll,'/on, D,C. 20530


                                                                                  September 18, 2012


M EMORANDUM


TO:                   David Sheeren
                      Regional Audit Manager
                      Denver Regional Audit Office

FROM:                 Bea Hanso,A.~
                      Acting Dir;cto\l't.
                      Office on Violence Againsl Women

                      Rodney Samuels         _~
                      Audit Liaison/Staff Accountant
                      Office on Violence Against Women

SUBJECT:              Draft Audit Report - Audit of the Idaho Supreme Court in Boise, Idaho
                      (ISC)


Thi s memorandum is in response to your correspondence dated August 2, 20 12 transmitting the
above draft aud it report for ISC. We consider the subject report resolved and request w ri tten
accep tance of this action from your office.

The report contains two recommendations, $6,497 in unallowable consultant costs and $26,692
in unallowable transfers between approved budget categories. The Office on Violence Against
Women (OVW) is co mmitted to working with the grantee to address each item and bring them
to a close as quickly as possible. The following is an analysis of the audit recommendations:


   1) Remedy the $6,497 in unallowable consultant costs.

       We agree with this recommendation. OVW will work with the grantee to remedy the
       $6,497 in unallowable consultant costs.

   2) Remedy tbe $26,692 in unallowable transfers between approved budgct categories.

       We agree with this recommendation. OVW will work with the grantee to remedy the
       $26,692 in unallowable transfers between approved budget categories.




                                               27

We appreciate the opportunity to review and comment on the draft report. We will continue to
work with ISC to address the recommendations. If you have any questions or require additional
information, please contact Rodney Samuels of my staff at (202) 514-9820.



cc:    Louise M. Duhamel
       Acting Assistance Director
       Audit Liaison Group
       Justice Management Division

       Angela Wood
       Budget Officer
       Office on Violence Against Women

       Nicolette Gantt
       Program Specialist
       Office on Violence Against Women




                                              2




                                              28

                                                                                                APPENDIX V

                   OFFICE OF JUSTICE PROGRAMS’
                 RESPONSE TO DRAFT AUDIT REPORT


                                                   U.S. Department of Justice

                                                   Office ofJustice Programs

                                                  Office of Audit, Assessment. and Management


                                                  W",~mgr.....   D.C. )OJ}I

     AUG 3 0 2012



MEMORANDUM TO:                David M. Sheeren
                              Regional Audi t Manager
                              Denver Regional Aud it Office
                              Office of the Inspector General

FROM:                         Maureen A. H ennctx7~ •
                              Director \rv,J\.~O

SUBJECT :                     Responsc to the Draft Audit Report. Audil oflhe Office on
                              Violence Against Women and Office of Justice Programs Grants
                              Awarded to the Idaho Supreme Court, BOise, Idaho

This memorandum is in response to your correspondence, dated August 2, 20 12, transmitting the
subject d rolft audit report for the Idaho Supreme Court (ISC). We conside r the subject report
resolved and request written acceptance of this actio n from your office.

The draft a udit report contains four recommendations and $33,189 in questioned cost.s, of which
two recommendations and no questioned costs are directed to the Office of Justice Programs
(OJP). The remaining two rccommendation:s and $33 , 189 in questio ne d costs are directed to the
Office on Violence Against Women. The following is OJP's analysis of the draft audit report
recom mendations. For ease of review, the recommendations are restated in bold and are
followed by our response.

3.     We recommend t hat OJP coordinate with ISC to ens ure that semi-annual progrcss
       reports are s ubmitted according to thc requirements of the OJP Financial Guide.

       OJP agrees with this reconunendatioll. We will coordinale wi th ISC to o bta in a eopy of
       procedures implemented to ensure that future semi-annual progress reports are s ubmjucd
       in a ti mely manner, in accordance wi th the req uirements stated in the OJP FinanCial
       Guide.




                                               29

4.     We recommend that OJP coordinate with ISC to ensure that all special conditions
       for grant Dumber 2009-DC -RX--0086 arc handled according to th e requirements of
       the OJP Financial Guide.

       OJP agrees willi Ihis reco mmendation. We will coordinate with ISC to: (1) delennine the
       applicability of all special conditions for grant number 2009-DC-BX-0086; and
       (2) address any outstanding special conditions through the submission of appro priate
       documentation.

We appreciate the opportunity to review and comment on the draft audit repo rt. lfyou have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
A udit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       O ffice of Audit, Assessment, and Man~gement

       Tracey Trautman
       Acting Deputy Director for Programs
       Bureau of Justice Assistance

       Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       NiKisha Love-Weaver
       State Policy Advisor
       Bureau of Justicc Assistance

       Beatrice Hanson
       Acting Director
       Office on Violence Against Women

       Rodney Samuels
       Audit Liaison
       Office on Violence Against Women

       Louise Duhamel, Ph.D.
       Acting Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Officc
       Justice Management Division

       OJP Execntive Secretariat
       Control Number 20 121400




                                             30

                                                              APPENDIX VI

                  OFFICE OF THE INSPECTOR GENERAL
                 ANALYSIS AND SUMMARY OF ACTIONS
                   NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the ISC, the OVW, and
OJP. The responses are incorporated into appendices III, IV, and V of this
final report. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

1.   Resolved. The OVW concurred with our recommendation to remedy
     the $6,497 in unallowable consultant costs. In their response to the
     draft report, ISC officials stated that they were not aware that they
     needed to abide by the allowable hourly consultant rate so long as the
     final work product was delivered for the $30,000 lump sum which had
     been approved by the OVW. However, we based our recommendation
     on the special condition in the award documentation which requires
     pre-approval for any consultant paid at a rate exceeding $56.25 per
     hour, or $450 per day. The OVW stated in its response that it will
     coordinate with the ISC to remedy the $6,497 in unallowable
     consultant costs.

     This recommendation can be closed when we receive evidence that the
     OVW has coordinated with the ISC to remedy the $6,497 in
     unallowable consultant costs.

2.   Resolved. The OVW concurred with our recommendation to remedy
     the $26,692 in unallowable budget transfers. In their response to the
     draft report, ISC officials reiterated that they had obtained approval
     for the budget transfers in an email from the OVW, but acknowledged
     that the required Grant Adjustment Notice had not been submitted.
     We based our recommendation on the OJP Financial Guide’s
     requirement that a Grant Adjustment Notice be submitted and
     approved in order to transfer funds in excess of 10% of the award
     amount between approved budget categories. The OVW stated in its
     response that it will coordinate with the ISC to remedy the $26,692 in
     unallowable budget transfers.

     This recommendation can be closed when we receive evidence that the
     OVW has coordinated with the ISC to remedy the $26,692 in
     unallowable budget transfers.



                                     31
3.   Resolved. OJP concurred with our recommendation to coordinate
     with the ISC to ensure that future semi-annual progress reports are
     submitted in a timely manner. In their response to the draft report,
     ISC officials cited a misunderstanding as to the submission process
     and the actual due dates for semi-annual progress reports. The ISC
     noted that it will implement policy in order to ensure that semi-annual
     progress reports are submitted before the due date. OJP stated in its
     response that it will coordinate with the ISC to obtain a copy of the
     procedures implemented to ensure that future semi-annual progress
     reports are submitted in a timely manner, and according to the
     requirements of the OJP Financial Guide.

     This recommendation can be closed when we receive evidence that
     OJP has coordinated with the ISC to verify that policy is drafted and
     implemented to ensure the future timely reporting of semi-annual
     progress reports.

4.   Resolved. OJP agreed with our recommendation to ensure that all
     special conditions for Grant No. 2009-DC-BX-0086 are handled
     according to the requirements of the OJP Financial Guide. In their
     response to the draft report, ISC officials stated that since receiving
     our report, they had submitted new procedures or obtained clearance
     from OJP to address the special condition findings we identified. OJP
     stated in its response that it would coordinate with the ISC directly to
     determine applicability and address any outstanding special conditions
     applicable to the award.

     This recommendation can be closed when we receive evidence that
     OJP has approved the documentation submitted, or provided a waiver
     to clear the special conditions applicable to the award.




                                     32
